No. 19-1308
================================================================================================================

In The

Supreme Court of the United States
-----------------------------------------------------------------BERNARD MORELLO, et al.,
Petitioners,
v.
SEAWAY CRUDE PIPELINE COMPANY, LLC,
Respondent.
-----------------------------------------------------------------On Petition For A Writ Of Certiorari To The
Court Of Appeals Of Texas, First District
-----------------------------------------------------------------SUPPLEMENTAL APPENDIX
-----------------------------------------------------------------JACQUELINE LUCCI SMITH
Counsel of Record
LUCCI SMITH LAW, PLLC
2550 Gray Falls Drive, Suite 395
Houston, Texas 77077
(832) 494-1700
JLSmith@LucciSmithLaw.com
Counsel for Petitioners
Bernard J. Morello and
White Lion Holdings, L.L.C.
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF CONTENTS
Page
APPENDIX
Order Granting Summary Judgment and
Denying Plea to Jurisdiction, August 21,
2016 ............................................................ S. App. 1
Order Denying Motion for Costs, August 3,
2016 ............................................................ S. App. 2
1975 PEA ....................................................... S. App. 4
Plaintiff ’s Second Amended Petition ............ S. App. 11
Offer of Proof for Chris Farrar ...................... S. App. 26

ii
INTRODUCTION TO
SUPPLEMENTAL APPENDIX
In addition to the two interlocutory orders (S.
App. 1; S. App. 2) which led to the entry of judgment
without trial, the remaining documents contained in
the Supplemental Appendix are: excerpts from Seaway’s Second Amended Petition, filed approximately
ninety (90) days prior to trial (S. App. 11); the 1975 Permanent Easement Agreement (“1975 Agreement”) (S.
App. 4); and the offer of proof detailing the testimony
and opinions of expert witness, Chris Farrar, filed with
the trial court. (S. App. 26). The amended petition and
1975 Agreement are referred to throughout Morello’s
Petition for Writ of Certiorari, filed on May 11, 2020.
Farrar’s proffer explains the impossibility of the preconditions mandated in Seaway’s amended petition
and why these terms, which vary significantly from
the negotiated terms of the 1975 Agreement, adversely
impacted the remainder of the Property west of the
pipeline. Id. at 37-43. Due to the terms imposed upon
the Property by the amended petition, the Property
west of the pipeline could no longer be developed. The
improper exclusion of expert testimony that contradicted the trial court’s personal opinion that Seaway’s
amended petition resolved the compensation dispute
resulted in an unconstitutional deprivation of Morello’s Fifth, Seventh, and Fourteenth Amendment
rights.

S. App. 1
CAUSE NO. 13-CCV-050231
SEAWAY CRUDE PIPELINE § EMINENT DOMAIN
COMPANY LLC,
§ PROCEEDING
§ IN THE COUNTY
Plaintiff,
§ COURT AT LAW
v.
§ NUMBER 3
§
BERNARD J. MORELLO,
§ FORT BEND
ET AL.,
§ COUNTY, TEXAS
Defendants.
§
Order Granting Plaintiff ’s Motion for Partial
Summary Judgment and Motion for No Evidence
Partial Summary Judgment and Order Denying
Defendants’ Plea to the Jurisdiction
The Court has considered Plaintiff ’s Motion for
Partial Summary Judgment and Motion for No Evidence Partial Summary Judgment as well as Defendants’ Plea to the Jurisdiction, which also serves as
their response to the motions for summary judgment.
The Court GRANTS Plaintiff ’s Motion for Partial
Summary Judgment and its Motion for No Evidence
Partial Summary Judgment.
The Court DENIES Defendants’ Plea to the Jurisdiction.
DATED: August 21, 2016.
/s/ Elizabeth Ray
Judge Elizabeth Ray

S. App. 2
CAUSE NO. 13-CCV-050231
SEAWAY CRUDE PIPELINE § EMINENT DOMAIN
COMPANY LLC,
§ PROCEEDING
§ IN THE COUNTY
Plaintiff,
§ COURT AT LAW
v.
§ NUMBER 3
§
BERNARD J. MORELLO,
§ FORT BEND
ET AL.,
§ COUNTY, TEXAS
Defendants.
§
ORDER DENYING DEFENDANTS’
§ 21.019 MOTION FOR COSTS
AND ATTORNEY’S FEES
On this date, the Court heard and considered Defendants’ § 21.019 Motion for Costs and Attorney’s
Fees (the “Motion”). After considering the Motion,
Seaway Crude Pipeline Company LLC’s Response in
Opposition to Defendants’ § 21.019 Motion for Costs
and Attorney’s Fees, and the arguments of counsel, the
Court denies the Motion. Accordingly, it is hereby:
ORDERED, ADJUDGED, and DECREED that the
Motion is DENIED in its entirety.
SIGNED this 3rd day of August

, 2016.

/s/ Elizabeth Ray
HONORABLE JUDGE ELIZABETH RAY

S. App. 3
Counsel for Plaintiff:
tforestier@winstead.com and orsaklaw@gmail.com
Counsel for Defendants:
jls@luccismithlaw.com and jbain@bainandbainlaw.net

S. App. 4
COMPARED

DEED VOL. 656 PAGE 322

269625
RIGHT OF WAY CONTRACT
DRAFT NO

FILE 15-21
PROJECT AFE SW 5008

FOR AND IN CONSIDERATION of the sum of
Eighteen Thousand Seven Hundred Eighty Seven [Illegible] 50/100
Dollars ($18,787.50), the receipt
of which is hereby acknowledged, GULF STATES
TUBE CORPORATION
(hereinafter referred to as
“Grantor”, whether one or more) hereby grants to SEAWAY PIPELINE, INC., (Grantee), its successors and
assigns, the right to lay, maintain, operate, protect, inspect and remove one pipeline for the transportation of
crude oil and hydrocarbon products, over, through,
upon, under and across lands in the County of Fort
Bend, State of Terms, to-wit:
That part of these tracts or parcels of land, the
first containing 20 acres, more or less, being
part of the Charles W. Simpson Survey, Abstract No. 485, in Fort Bend County, Texas,
more particularly described in that certain
Deed from Sun Daily, et ux, to Gulf States
Tube Corporation, dated January 6, 1960, and
recorded in Volume 400, Page 171, in the Deed
Records of Fort Bend County, Texas. The second containing 115.22 acres, more or less, being part of the Charles W. Simpson Survey,
Abstract No. 485, in Fort Bend County, Texas,
more particularly described in that certain
Deed from Helene Daily Sussan, et al, to Gulf

S. App. 5
State Tube Corporation, dated May 31, 1967,
and recorded in Volume 458, Page 853, in the
Deed Records of Fort Bend County, Texas. The
third containing 25.322 acres, more or less, being 23.167 acres, more or less, of the C. F. Osborne Survey, Abstract No. 691, and the Moses
Merritt Survey, Abstract No. 287, and 2.155
acres, more or less, of the Lester E. Cross Survey, Abstract No. 408, all in Fort Bend County,
Texas, more particularly described in that certain Deed from Herman W. Blackwood, et al,
to Gulf States Tube Corporation, dated April
7, 1960, and recorded in Volume 404, Page
134, in the Deed Records of Fort Bend Cunty,
Texas. Said part of the above described tracts
of land being more particularly described as
follows, to wit:
A strip of land 75 feet in width, being a permanent right-of-way 60 feet in width, 85 feet
westerly and 35 feet easterly of the following
described line, with a 15 foot wide temporary
work space adjacent to the easterly side of
said permanent right-of-way. Said strip of
land expanding to a width of 150 feet for a distance of 400 feet northerly, along the following
described line, from the northerly right-ofway line of the Southern Pacific Railroad, being the southerly property line of the Grantors herein, being a permanent right-of-way
60 feet in width, 25 feet westerly and 35 feet
easterly of the following describe line, with a
50 foot wide temporary work space adjacent
to the westerly side of said permanent rightof-way and a 40 feet wide temporary work

S. App. 6
space adjacent to the easterly side of said permanent right-of-way.
Beginning at a point on the southeasterly
property line of the Grantors herein, said
point being southwesterly, along said property
line, a distance of 528.2 feet from the southeasterly corner of the 115.22 acre tract of
land, of which this is a part, a fence corner
post more particularly described in Volume
488, Page 853, in the Deed Records of Fort
Bend County, Texas; thence North 04" 38' 09"
West, a distance of 2429 feet to a point on the
northerly property line of the Grantors
herein, the south side of a County Road, said
point being westerly, along said property line,
a distance of 1415.0 feet from the Grantors’
northeasterly property corner, a point at the
intersection of the south line of a County Road
with the west line of another County Road.
Containing 3.34 acres permanent right-ofway and additional 1.52 acres temporary
work space.
In the event Grantee fails to use said pipeline, or
equipment for a period of eighteen (18) consecutive
months after construction, this equipment and all
rights granted hereunder shall cease, expire, and ipso
facto terminates without any demand or putting in default.
In the event of the termination of this grant, in
any manner, Grantee shall remove all pipe and appurtenances in the right-of-way herein granted and shall
be liable for all damages occasioned thereby to Grantor

S. App. 7
or persons holding under Grantor, and shall fill up
thoroughly the trench or ditch left on Grantor’s property after removed of said pipe line and shall restore
the right-of-way to a clean and safe condition.
The [illegible] herein granted is for one pipeline
and one pipeline only. The width of said easement shall
be seventy-five (75') feet in width during construction
and shall revert to a permanent width of sixty (60')
thereafter.
Grantor reserves the right to construct, place, lay
and maintain telephone, electric, sewer and water
lines and roadways or streets or railroad spurs on, over
and across, but not along the easement. Any expense
involved in raising, lowering, casing, venting or other
protective measures required will be at the sole cost
and expense of Grantee. Grantee agrees that it will,
within three (3) months after receiving written notice
from the Grantor herein, lower, raise, case and/or vent
its pipeline if such be necessary in order that Grantor
may construct a railroad spur or roadways over the
across said pipeline of the Grantee.
Grantee agrees that the pipeline and appurtenances shall be buried not less than 36 inches below
the surface of the ground and there will be no above
ground installations.
During initial construction, Grantee may use such
additional temporary work space as may be reasonable
and necessary at all highway, road, railroad, erode
and/or drainage ditch crossings.

S. App. 8
Except as herein provided, Grantor expressly covenants and agrees not to impound or maintain any
substances whatsoever or construct, place or erect
buildings or structures of any type whatsoever upon,
over, under or across or within (40) forty feet of the
pipeline and its appurtenances upon, over, under or
across the above described lands, or permit same to be
done by others. The rights and privileges herein
granted are assignable or transferrable in whole or in
part, vesting in any other person, firm or corporation
the ownership of one pipeline and appurtenance or an
undivided interest therein.
Grantee agrees to pay for all damages to the buildings, equipment, improvements and personal property
of the Grantor caused by the laying of said pipeline and
the maintenance and use thereof.
Grantee agrees that it will, within six (6) months
after receiving written notice from the Grantor herein,
relocate its pipeline, at Grantee’s expense, to eliminate
any actual interference with a proposed bonafide plan
of Grantor involving the construction of buildings or
structures with which Grantee’s pipeline would unreasonably interfere. If such interference requires relocation of the pipeline, then Grantor shall furnish
Grantee, at no charge, an alternate right-of-way across
said land of the same width as the right-of-way herein
granted, and granting the same rights to Grantee as
expressed herein, said right-of-way to be at a location
that is reasonably satisfactory to both Grantor and
Grantee herein. It is expressly understood that
Grantee shall not be required to relocate its pipeline

S. App. 9
more than one time and Grantor hereby agrees it will
not require or request such relocation within five (5)
years from the date of this instrument.
Grantor is to fully use and enjoy said premises excerpt for the purposes hereinabove granted.
All of the rights, obligations, comments and provisions hereof shall inure to and be binding upon the accessors and assigns of the parties hereto.
The rights herein granted, or any of them, may be
exercised by any or all of the Grantee herein, their successors and/or assigns either jointly or separately.
Signed and delivered this 26
1975.

day of June

,

GULF STATE TUBE CORPORATION
By: /s/ John Boxner
John Boxner, Vice President
[SEAL]
ATTEST:
/s/

[Illegible]

THE STATE OF TEXAS
COUNTY OF FORT BEND
BEFORE ME, the undersigned authority, on this
day personally appeared John Boxner
, known to
me to be the person above name is subscribed to the
foregoing instrument as Vice President
of GULF

S. App. 10
STATES TUBE CORPORATION, a corporation, and
acknowledged to on that be executed the same for the
purposes and consideration therein expressed, in the
capacity therein stated, and as the act and deed of said
corporation.
Given under my hand and seal of office this the
26th day of June , 1975.
/s/ [Illegible]
NOTARY PUBLIC IN
AND FOR FORT BEND
COUNTY [SEAL]
My commission expires June, ’77
Duly recorded this the 22
at 4:30 O’Clock P.M.
By /s/ [Illegible]

.

day of August A.D. 1975

Deputy

Pearl Ellett,
County Clerk
Fort Bend
County, Texas

S. App. 11
NO. 13-CCV-050231
§
§
§
§
PLAINTIFF,
§
§
v.
§
BERNARD J. MORELLO §
and WHITE LION
§
HOLDINGS, LLC,
§
§
DEFENDANTS.
SEAWAY CRUDE
PIPELINE COMPANY
LLC,

EMINENT DOMAIN
PROCEEDING IN
THE COUNTY
COURT AT
LAW NO. 3
FORT BEND
COUNTY, TEXAS

PLAINTIFF’S SECOND AMENDED
STATEMENT AND PETITION
FOR CONDEMNATION
TO THE HONORABLE JUDGE OF SAID COURT:
Plaintiff, SEAWAY CRUDE PIPELINE COMPANY LLC (“SEAWAY”), files this Second Amended
Statement and Petition for Condemnation against
BERNARD J. MORELLO (“MORELLO”) and WHITE
LION HOLDINGS, LLC (“WHITE LION”), and shows
the Court as follows:
I.
DISCOVERY SCHEDULE
1. Discovery is intended to be conducted under
level 2 of Rule 190 of the Texas Rules of Civil Procedure.

S. App. 12
II.
PARTIES
2. Plaintiff, SEAWAY CRUDE PIPELINE COMPANY LLC, is a Delaware limited liability company,
and is authorized to transact business in the State of
Texas.
3. Defendant BERNARD J. MORELLO is record
owner of certain land situated in Fort Bend County,
Texas, upon which the easements identified in Exhibits
A and B, attached to this petition . . .
*

*

*

25. MORELLO shall, upon ninety (90) days prior
notice to SEAWAY, have the right to construct, maintain, repair, and operate pipelines, fences, roads,
streets, alleys, sidewalks, bridges, railroad tracks, underground communications conduits, electric transmission and distribution lines, telephone lines, gas,
water, drainage and sewer pipelines, and other utilities, across the Morello Property Permanent Easement
at any angle of not less than forty-five (45) degrees to
the Pipeline; and the right to use the Morello Property
covered by the Morello Property Permanent Easement
for recreation or other similar purposes, not inconsistent or conflicting with SEAWAY’s use and enjoyment of the Morello Property Permanent Easement for
the purposes set forth herein; provided, however, MORELLO shall exercise said rights in such a manner so
that (i) the Pipeline and facilities located within the
Morello Property Permanent Easement shall not be
endangered, obstructed, injured or interfered with; (ii)

S. App. 13
SEAWAY’s access to the Morello Property Permanent
Easement, the Pipeline and its other facilities is not
interfered with; (iii) SEAWAY shall not be prevented
from traveling within and along the entire length of
the Morello Property Permanent Easement on foot or
in vehicles or machinery; (iv) the Pipeline is left with
the amount of cover originally installed to allow safe
operation of the Pipeline; (v) the Pipeline is left with
proper, sufficient, and permanent lateral support; and
(vi) SEAWAY’s use of the Morello Property Permanent
Easement for the purposes set forth herein is not unreasonably impaired or interfered with. MORELLO
can plow, cultivate and farm the Morello Property Permanent Easement without notice to or the consent of
SEAWAY, provided that these operations do not disturb the Morello Property Permanent Easement to a
subsurface depth below sixteen inches (16”) from the
ground surface.
26. SEAWAY shall, at SEAWAY’s sole cost and
expense, lower and/or encase the Pipeline, and/or take
other protective measures, as SEAWAY deems necessary to permit MORELLO to construct and maintain
roads, streets, and/or railroad tracks across the Morello Property Permanent Easement consistent with
paragraph 25 above, provided that MORELLO first
presents SEAWAY with the following: (i) engineering
plans and profiles showing the design, specifications,
and exact location(s) of all proposed road, street, and/or
railroad crossings; (ii) copies of any governmental permits or approvals required for construction of the proposed road(s), street(s), and/or railroad tracks; (iii) in

S. App. 14
the case of railroad tracks, proof that a railroad company that owns or operates the railroad right-of-way
along Texas State Highway Spur 529 has agreed to
provide rail service to the Morello Property and/or the
White Lion Property; and (iv) proof that sufficient
funding for construction of all of the proposed road(s),
street(s), and railroad tracks is in place. Upon being
presented with the foregoing, SEAWAY shall have 180
days in which to complete any necessary work contemplated by this paragraph. SEAWAY shall not be required to make accommodations for crossings under
the terms of this paragraph more than one time. MORELLO’s rights in this paragraph shall inure to the
benefit of the successor owners of the Morello Property.
27. SEAWAY reserves the right to install gates
in any fences that cross the Morello Property Permanent Easement. SEAWAY shall bury the Pipeline to a
minimum depth of thirty-six inches (36”) below the
surface of the ground and any then-existing drainage
ditches, creeks and roads, except at those locations
where rock is encountered the Pipeline may be buried
at a lesser depth.
*

*

*

45. WHITE LION shall, upon ninety (90) days
prior notice to SEAWAY, have the right to construct,
maintain, repair, and operate pipelines, fences, roads,
streets, alleys, sidewalks, bridges, railroad tracks, underground communications conduits, electric transmission and distribution lines, telephone lines, gas,
water, drainage and sewer pipelines, and other

S. App. 15
utilities, across the White Lion Property Permanent
Easement at any angle of not less than forty-five (45)
degrees to the Pipeline; and the right to use the White
Lion Property covered by the White Lion Property Permanent Easement for recreation or other similar purposes, not inconsistent or conflicting with SEAWAY’s
use and enjoyment of the White Lion Property Permanent Easement for the purposes set forth herein; provided, however, WHITE LION shall exercise said
rights in such a manner so that (i) the Pipeline and
facilities located within the White Lion Property Permanent Easement shall not be endangered, obstructed, injured or interfered with; (ii) SEAWAY’s
access to the White Lion Property Permanent Easement, the Pipeline and its other facilities is not interfered with; (iii) SEAWAY shall not be prevented from
traveling within and long the entire length of the
White Lion Property Permanent Easement on foot or
in vehicles or machinery; (iv) the Pipeline is left with
the amount of cover originally installed to allow safe
operation of the Pipeline; (v) the Pipeline is left with
proper, sufficient, and permanent lateral support; and
(vi) SEAWAY’s use of the White Lion Property Permanent Easement for the purposes set forth herein is not
unreasonably impaired or interfered with. WHITE
LION can plow, cultivate and farm the White Lion
Property Permanent Easement without notice to or the
consent of SEAWAY, provided that these operations do
not disturb the White Lion Property Permanent Easement to a subsurface depth below sixteen inches (16”)
from the ground surface.

S. App. 16
46. SEAWAY shall, at SEAWAY’s sole cost and
expense, lower and/or encase the Pipeline, and/or take
other protective measures, as SEAWAY deems necessary to permit WHITE LION to construct and maintain roads, streets, and/or railroad track; across the
White Lion Property Permanent Easement consistent
with paragraph 45 above, provided that WHITE LION
first presents SEAWAY with the following: (i) engineering plans and profiles showing the design, specifications, and exact location(s) of the proposed road, street,
and/or railroad crossing(s); (ii) copies of any governmental permits or approvals required for construction
of the proposed road(s), street(s), and/or railroad track;
(iii) in the case of railroad tracks, proof that a railroad
company that owns or operates the railroad right-ofway along Texas State Highway Spur 529 has agreed
to provide rail service to the Morello Property and/or
the White Lion Property; and (iv) proof that sufficient
funding for construction of all of the proposed road(s),
street(s), and railroad tracks is in place. Upon being
presented with the foregoing, SEAWAY shall have 180
days in which to complete any necessary work contemplated by this paragraph. SEAWAY shall not be required to make accommodations for crossings under
the terms of this paragraph more than one time.
WHITE LION’s rights in this paragraph shall inure to
the benefit of the successor owners of the White Lion
Property.
47. SEAWAY reserves the right to install gates
in any fences that cross the White Lion Property Permanent Easement. SEAWAY shall bury the Pipeline to

S. App. 17
a minimum depth of thirty-six inches (36”) below the
surface of the ground and any then-existing drainage
ditches, creeks and roads, except at those locations
where rock is encountered the Pipeline may be buried
at a lesser depth.
*

*

*

CERTIFICATE OF SERVICE
I certify that on this the 17th day of May 2016, the
above and foregoing document was served upon the following attorney of record in compliance with Rule 21a
of Texas Rules of Civil Procedure:
Jacqueline Lucci Smith
Lucci Smith Law, PLLC
10810 Katy Freeway, Suite 102
Houston, Texas 77043
JLSmith@LucciSmithLaw.com
Attorneys for defendants Bernard J. Morello and
White Lion Holdings, LLC
By Email & Electronic Service
/s/ Thomas J. Forestier
Thomas J. Forestier

EXHIBITS
A and B

S. App. 18
EXHIBIT “A”
SEAWAY CRUDE PIPELINE COMPANY LLC
SEAWAY LOOP – SEGMENT 4
BERNARD J. MORELLO
TRACT NO TX-FB-0135.00000
PERMANENT EASEMENT AND RIGHT OF WAY
Description of a fifty (50) foot wide Permanent Easement and Right of Way situated in the H. & T.C. R.R.
CO. Survey, Section 12, Abstract Number 485, and being over, through and across a called 115.22 acre tract
of land conveyed to Bernard J. Morello, recorded in
County Clerk File Number (C.C.F. No.) 2004042732 of
the Official Public Records of Fort Bend County- Texas
(O.P.R.F.B.C.T.), said fifty (50) foot wide Permanent
Easement and Right of Way being situated twenty (25)
feet on each side of the herein described baseline, the
sidelines of said Permanent Easement and Right of
Way being lengthened or shortened to meet the boundary lines of said called 115.22 acre tract of land, said
baseline being more particularly described as follows:
COMMENCING as a 1/2 inch iron rod found for the
north corner of said 115.22 acre tract of land and the
most westerly corner of Tract 3, a called 20 acre tract
of land conveyed to White Lion Holdings, L.L.C., recorded in C.C.F. No. 2004042731 of the O.P.R.F.B.C.T.;
THENCE South 45° 32' 13" East, along the northeasterly boundary of said 115.22 acre tract of land, a distance of 1454.79 feet, to the POINT OF BEGINNING;

S. App. 19
THENCE South 06° 09' 28" East a distance of 51.92
feet, to a point;
THENCE South 12° 13' 28" East, a distance of 797.86
feet to the POINT OF TERMINATION in the southeasterly boundary of said 115.22 acre tract of land and
the northwesterly right of way of the Texas Mexico
RailWay, from which a 1/2" iron pipe found for the
southeasterly corner of the said 115.2 acre tract of land
bears North 53° 17' 45" East, a distance of 476.79 feet,
said baseline having a total length of 849.78 feet (51.50
rods) and said Permanent Easement of R.O.W. containing 0.975 acre of land, more or less.
TEMPORARY WORKSPACE
A seventy five (75) foot wide strip of land parallel with
and adjacent to the westerly boundary of the above described Permanent Easement and Right of Way, extending or shortening the side lines of the Temporary
Work Space to intersect with the boundary lines of the
said 115.22. acre tract of land. Said Temporary Work
Space containing 1.655 acres of land. more or less.
ADDITIONAL TEMPORARY WORKSPACE
A one-hundred and twenty-five foot by twohundred and thirty-four foot (125'x234') strip of land
parallel with and adjacent to the westerly boundary of
the above described Temporary Workspace and depicted on Exhibit “B”, containing 0.752 acre of land,
more or less.

S. App. 20
All bearings and distances shown herein are grid,
based upon UTM, Zone 14N, North American Daium of
1983, U.S. Survey Feet, its derived from an on the
ground survey performed by Willbros Engineers (U.S.)
LLC conducted in June of 2012.
For reference and further information see Exhibit “B”
drawing number TX-FB-0135.00000, Rev. 1, same date.
/s/ Jeffrey Lee Woodson
Jeffrey Lee Woodson
Registered Professional
Land Surveyor
Texas Registration No. 6246
[SEAL]

2/25/2013
Date:

S. App. 21

EXHIBITS
A-1 and B-1

S. App. 22
EXHIBIT “A”
SEAWAY CRUDE PIPELINE COMPANY LLC
SEAWAY LOOP – SEGMENT 4
WHITE LION HOLDINGS, LLC.
TRACT NO TX-FB-0134.00000
PERMANENT EASEMENT AND RIGHT OF WAY
Description of a fifty (50) foot wide Permanent Easement and Right of Way situated in the C.P. Osborne
Survey, Abstract No. 691, the H.T. & C. RR. Co. Survey,
Abstract 485, the Moses Merritt Survey, Abstract 287,
and the Lester E. Cross Survey, Abstract 408, Fort
Bend County Texas, and being over, through and across
Tract 2, a called 25.322 acre tract of land, and Tract 3,
a called 20 acre tract of land conveyed to White Lion
Holdings, LLC., recorded in County Clerk File Number
(C.C.F. No.) 2004042731 of the Official Public Records
of Fort Bend County- Texas (O.P.R.F.B.C.T.), said fifty
(50) foot wide Permanent Easement and Right of Way
being situated twenty (25) feet on each side of the
herein described baseline, the sidelines of said Permanent Easement and Right of Way being lengthened or
shortened to meet the boundary lines of said called
25.322 acre (Tract 2) tract of land, and said 20 acre,
(Tract 3), tract of land, said baseline being more particularly described as follows:
COMMENCING as a 1/2 inch iron rod found for the
northwest corner of said 25.322 acre (Tract 2) tract of
land in the south right of way line of Muegge Road;
THENCE, North 81° 10' 46" East, along the common
line of the of the said 25.322 (Tract 2) acre tract of land

S. App. 23
and the said south right of way line of Muegge Road a
distance of 944.36 feet, to the POINT OF BEGINNING;
THENCE South 06° 09' 06" East, a distance of 1560.53
feet to the POINT OF TERMINATION in the southeasterly boundary of said 20 acre, (Tract 3) tract of
land and the north boundary of a called 1215.22 acre,
(Tract 4) tract of land conveyed to Bernard J. Morello,
record in C.C.F. No. 2004042732, of the O.P.R.F.B.C.T.,
from which a 1/2 inch iron pipe rod found for the south
corner of the said 20 acre tract (Tract 3) tract of land
bears South 45 32 13 east, a distance of 780.10 feet;
said baseline having a total distance of 1540.53 feet
(94.58 rods) and said Permanent Easement of R.O.W.
TEMPORARY WORKSPACE
A seventy five (75) foot wide strip of land, parallel with
and adjacent to the west boundary of the above described Permanent Easement and Right of Way, extending or shortening the side lines of the Temporary
Work Space to intersect with the boundary lines of the
said 25.322 acre, (Tract 2) tract of land and the said 20
acre (Tract 3) tract of land; said Temporary Work Space
containing 2.550 acres of land, more or less.
ADDITIONAL TEMPORARY WORKSPACE
A one-hundred and twenty-five foot by two-hundred
foot (125'x200') strip of land parallel with and adjacent
to the west boundary of the above described Temporary

S. App. 24
Workspace and depicted on Exhibit “B”, containing
0.556 acre of land, more or less
All bearings and distances shown herein are grid,
based upon UTM, Zone 14N, North American Daium of
1983, U.S. Survey Feet, its derived from an on the
ground survey performed by Willbros Engineers (U.S.)
LLC conducted in June of 2012;
For reference and further information see Exhibit “B”
drawing number TX-FB-0135.00000, Rev. 1, same date.
/s/ Jeffrey Lee Woodson
Jeffrey Lee Woodson
Registered Professional
Land Surveyor
Texas Registration No. 6246
[SEAL]

2/25/2013
Date:

S. App. 25

S. App. 26
CAUSE NO. 13-CCV-050231
SEAWAY CRUDE
PIPELINE COMPANY,
LLC
Plaintiff
V.
BERNARD J. MORELLO
ET AL
Defendants

§
§
§
§
§
§
§
§
§

CONDEMNATION
PROCEEDING
COUNTY COURT
AT LAW NO. 3
FORT BEND
COUNTY, TEXAS

EXHIBIT A
OFFER OF PROOF CHRIS FARRAR
Mr. Farrar is a commercial real estate professional
with expertise in capitalizing commercial real estate
projects, underwriting commercial real estate transactions and procuring the development of real estate
projects (permitting and entitlement process). If permitted to testify at trial, Mr. Farrar would offer the
opinion that the conditions set forth in Plaintiff ’s Second Amended Petition, and in particular as set forth in
Paragraphs 26 and 46 of that pleading would effectively prohibit the Property Owners from developing
the property in any manner that would require Seaway
to undertake any protective measures, including lowering, encasing or venting the pipeline. Mr. Farrar will
explain why the conditions set forth in the Second
Amended Petition in Condemnation cannot be met by
the Property Owners and therefore, the Property
Owners would not be able to invoke what is in reality
a non-existent right to require Seaway to make any

S. App. 27
modifications to protect the Pipeline. Additionally, Mr.
Farrar would offer testimony that because of the language in the Second Amended Petition the Defendant
Property Owners would be unable to raise capital or
obtain funding and permitting for development of the
Property. Mr. Farrar’s testimony would include the following:
Mr. Farrar’s CV is offered concurrently herewith
and is Bates Numbered CF_0001 - 0002.
Q. Tell the jury about your education.
Graduated from Texas A&M University – Mays
Business School, College Station, TX December
2009 Master of Real Estate – Finance
Graduated from Texas A&M University – College
of Architecture, College Station, TX August 2006
Bachelor of Construction Science
Q. What experience do you have in the real estate industry?
I first worked for Camden Property Trust – Houston, TX from August 2006 – August 2008. During
that time, I held the position of Project Engineer/
Analyst – Real Estate Investments. That position
in particular dealt with new development and rehab of multi-family assets. My responsibilities included:
• Supported the project manager in construction of multi-family projects, including new
development and rehab.

S. App. 28
•

Responsible for the construction schedule and
project quality control ensuring delivery of
project in a timely manner.

•

Performed cost estimating and assisted in
buy-out process of multi-family development
projects.

•

Prepared financial and market analysis for
senior development team on potential rehabs
and new construction.

•

Traveled bi-weekly to various markets to
evaluate project status and perform construction budget analysis.

•

Researched development trends and demand
for future growth in Camden’s eight core
markets.

•

Handled the pre-development process for new
construction projects, which included obtaining and providing necessary documentation to
secure building permits and governmental
approvals.

•

Worked with engineers and architects
throughout the development process to ensure compliance and address modifications
encountered during construction.

Q. Explain the process a property owner/developer
must go through to successfully complete a new development.
First you hire an architect and engineer.
The architect completes designs and produces
schematic drawings and renderings. This cannot

S. App. 29
be completed without specific information about
the location, depth and easement restrictions applicable to the pipeline.
Owner/developer then takes the preliminary design and schematic to the engineer to obtain specific plans that are feasible structurally and
financially. This cannot be completed without specific information about the location, depth and
easement restrictions applicable to the pipeline.
Developer then must take the plans to appropriate
oversight authorities – city, county, etc. – for approvals.
Developer throughout this process is analyzing
market conditions to determine if the project is financially feasible and preparing a financial package to demonstrate the future profitability of the
project for use in raising capital and obtaining
funding.
Developer prepares financing package which has
its own set of documents.
Developer obtains bids from General Contractor
or contractors that will provide budget and obtain
preliminary pricing
Obtain all necessary approvals, permits and entitlements
Secure financing and capital
Build infrastructure
Build the project
Allow for stabilization period.

S. App. 30
Q. Your job was to work with the Civil/ Structural Engineer and Architect to design plans to submit to various governmental entities for approval, and then
obtain necessary permits to move forward. How often
is the first set of plans approved?
Rarely – Almost never. The Plans must be reviewed and approved by multiple persons or departments within the regulating, governing body
(city or county), and any required change by any
one person/department requires that the revised
plans be resubmitted for additional approval. It is
a process that essentially starts over any time
someone or some condition of the property requires a change.
Q. While at Camden Property Trust was it your job
to get plans and amendments through all the processes
for approval?
Yes
Q.

Where were these projects located?
The projects were located in Houston, TX; Tampa,
FL and Orlando, FL

Q. What happens when, during the permitting or
construction process, the developer encounters unforeseen circumstances that require change in plans?
Several things can happen, depending on the required changes. Typically, a resubmission to the
city or county with the incorporated changes that
would have to be approved. Also the developer
would have to notify the bank and the general

S. App. 31
contractor for adjustment in loan proceeds or
costs/change orders.
Q.

What are entitlements?
Entitlements – ie: government approvals Examples include zoning approvals, wetlands removal,
greenspace additions, street additions, landscape
requirements, etc.

Q.

How long were you at Camden?
Two years

Q.

Why did you leave?
There was a downturn in market and new development slowed, so I went to graduate school.

Q.

What did you do after grad school?
I went to work for BBVA Compass – Houston, TX
from December 2009 – September 2011

Q.

What was your position there?
Assistant Vice President – Commercial Real Estate Lending

Q.

What were your job responsibilities?
•

Supported three relationship managers in
servicing and funding a $900 million dollar
commercial real estate loan portfolio.

•

Assisted with the development of new business and provided credit analysis for all prospective clients/deals.

S. App. 32
•

Responsible for all phases of underwriting
loans including real estate analysis, cash flow
and profitability modeling.

•

Maintained loan portfolio, including quarterly
updates, approving draw requests, and monitoring covenant compliance.

•

Evaluated market and product type risk of
loan portfolio and analyzed project economics
for all new loans for new development or existing assets.

Q. What did you do at BBVA Compass that is relevant to your opinions in this case?
Source and Underwrite the Deals – I would meet
with the developer or sponsor to discuss the potential opportunity. From there we would decide if we
wanted to pursue the loan opportunity. I would
complete a full underwriting of the project and
sponsor and then submit to credit committee for
approval of loan commitment.
– Underwriting commercial real estate for the
bank. This is much different from a car or home
loan. When underwriting for commercial real estate it is not as simple as filling out an application
and running a credit report. Several other conditions and criteria must be met on both the project
and sponsor side. These include sponsor strength
and experience (verifying resume, contingent liability analysis, liquidity, creditworthiness, etc).
One must also address the project which includes:
feasibility, financial analysis, profitability, general
contractor capabilities/bonding capacity, market

S. App. 33
analysis, required compliance and costs associated
with permitting, etc.
Funding for commercial development, whether it
is industrial, multifamily, rail, retail or some other
type of income producing asset, the analysis is always project and sponsor driven. This means that
in order to obtain funding from a bank or any
other financial resource, the applicant must present a package that convinces the lender that
the project is financially feasible, physically possible, sponsored by a viable person or entity, staffed
by qualified professionals and contractors, and
whether the project is compatible with market conditions and the highest and best use of the property.
Q.

Q.

Explain the terminology please.
1.

Sponsorship – person requesting the financing and providing guaranty during construction

2.

Project – is the project financially feasible- is
it going to be profitable

3.

Market – doing your homework – what is the
demand for the finished project. For example,
in this instance, are there other or competing
rail yards and how are they performing, how
much revenue do they generate, and what
does it cost to build a railyard that would be
competitive in the market.

Can you give me an example of the process?
1.

Architect – prepares rough estimate at budget

2.

General Contractors – Verifies budget and
Bids the project

S. App. 34
3.

Developer picks General Contractor

4.

General Contractor has to pass Bank mustermust be able to obtain performance and payment bonds to protect against liens during
construction

5.

If contractor doesn’t pass bank scrutiny – developer must start over with another contractor or sponsor must provide enough support
financially to get the bank comfortable

6.

Bank evaluates bids against current construction costs – this is an ongoing internal metric
banks keep track of.

7.

Perform Underwriting analysis to make sure
project will be cash flow positive and profitable at stabilization – able to meet debt service
coverage ratio (DSCR). – This is an internal
metric used by the bank or other lender.

8.

Will the project or sponsor be able to meet interest carry during development and while
the project stabilizes

9.

Review contracts and letters of intent from
rail company to show project income will exist
upon completion which in turn allows developer to properly meet debt service obligations

10. Appraisal – all info sent to appraiser – who
will determine highest and best use and final
value, both “As Is and As Stabilized”
11. Once value determined – bank has to decide
final lending parameter – (70-75% loan to cost
typically on construction/ground up deals).

S. App. 35
Any risk that is perceived by the bank or lender on
any one of these factors may prevent funding for
the deal. For example, in this case the risk that
Seaway will not agree to lower, encase or protect
the pipeline in a timely manner would be perceived as an unacceptable risk. Also, the risk that
other components of the deal will expire or fall
apart during the 180 day period Seaway has to
evaluate and take protective measures for the
pipeline would be perceived as too high to pass underwriting because during that 180 day period too
much can change. Permits can expire, building
codes can change, market conditions can change,
the rail companies might back out of the deal, etc.
Q.

What do you do now?
I own my own companies. FMC Advisors LLC and
Woodside Capital Advisors LLC – Houston, TX. We
opened in August 2013 – Present
I do Commercial Real Estate Financial Consulting
•

Provide financial consulting for clients during
the acquisition, development and re-financing
process.

•

Source both debt and equity via multiple capital sources for all property types throughout
the major markets of Texas.

•

Assist the client in the management of the
transaction process, including development,
valuation, insurance, environmental, legal
and title.

S. App. 36
Q.

How is that relevant to your opinions in this case?
I have a strong understanding of what it takes to
develop a project.

Q. Have you had the opportunity to review the conditions placed on Property owners in this case in order
to invoke the provision in the Second Amended Petition for Condemnation that purports to give the Property Owners the right to require Seaway to lower,
encase or take other protective measures for its pipeline in order to make way for development.
Yes
Q.

Where are those conditions specified?
In general, the petition sets forth what the property owners can do with the property now, and paragraphs 26 and 46 of the Second Amended Petition
set forth the conditions the Property Owners must
meet in order to require Seaway to lower, encase
or otherwise protect the pipeline to allow for development.

Q.

What can the Property Owners do now?
They are limited to activities that do not interfere
with or endanger the pipeline at its current location. Basically, no commercial development would
be permitted over the pipeline under the terms of
the Second Amended Petition. In order for there to
be any development whatsoever, the Property
Owners would have to meet the conditions in Paragraphs 26 and 46, and Seaway would have to
lower, encase or otherwise protect the pipeline in
a way that is acceptable to the Developer, the end

S. App. 37
users (ie: railroad company or companies) and the
regulating authorities (building codes, permits,
entitlements).
Q. Are the conditions precedent that the Property
Owners must meet to get Seaway to lower, encase or
protect the pipeline to allow for development achievable?
In my opinion no.
Q.

Why not?
Several reasons, one of which is they are not compatible with the ability to obtain government approvals and/or financing for development of this
property into industrial use with rail or any other
use for that matter other than raw land.

Q.

Could you explain in more detail?
1.

The conditions placed on the property owners
as prerequisites to their ability to require Seaway to lower and/or encase or otherwise protect the Pipeline to allow for development
would not and cannot occur in the manner
and sequence prescribed. Seaway has no obligation under the terms of Paragraphs 26 and
46 to move, lower, encase or take any protective measures to allow for development until
and unless the Property owners first meet the
conditions set forth in (i) – (iv) of those paragraphs. Even if that were possible, which in
my opinion it is not, Seaway’s obligation to
comply is not absolute. It reserved for itself
the discretion to determine what was necessary. Yet, the other components, may be

S. App. 38
incompatible with Seaway’s decided method.
For example, one of the conditions requires
the Property Owners to have a contract with
a railroad company. There is no requirement
that Seaway comply with the Railroad’s conditions, therefore, even if the Property Owners were to obtain a contract, Seaway retains
the power to invalidate it by refusing to meet
the safety precautions demanded by the railroad company. Similarly, if Seaway’s opinion
differed from the permitting authorities, the
Property Owner would have no mechanism to
force Seaway to meet the terms for the permits. Furthermore, permits aren’t issued until
plans exist, and plans cannot be prepared until the specifics of where and how the pipeline
will be moved or protected exist. It is a circular exercise in futility.
2.

In addition, Seaway reserved for itself a 180
day compliance period, which would effectively prevent any ability to fund the project
as more specifically explained below. Because
the conditions placed on the property owners
as prerequisites to the ability to require Seaway to lower and/or encase the Pipeline or
take other protective measures to allow for development significantly raise the risk that
any potential development plan will not be
completed, the additional risk will negatively
impact the property owners’ ability to raise
both debt and equity, attract investors or obtain required building permits. In my opinion
the risk factors caused by the prerequisites
will make it highly unlikely, if not impossible
for the property owners to obtain funding

S. App. 39
through investment or economical financing
from any source.
3.

Essentially Seaway is requiring the property
owners to complete the requirements set forth
in paragraphs Roman numerals (i) – (iv) of
paragraphs 26 and 46 before Seaway even has
to consider moving, lowering, encasing, or otherwise protecting the pipeline. While the steps
set forth in paragraphs (i) – (iv) are valid steps
that would be part of a development plan,
they cannot be achieved in that order. For example, a Bank or other lender is not going to
provide a commitment, let alone have “funds
available” without knowing that Seaway is required to move the pipeline. What is there to
guarantee the bank the pipeline would be
moved. Requirement (iv) is impossible to meet
because it means essentially that Property
owner would have to close on this loan without having approval from pipeline company,
which no financial institution would do. That
is the meaning of the “funds in Place” requirement.

4.

A construction loan ordinarily requires personal guarantee. It would not be commercially
reasonable or feasible to expect a property
owner or future developer to close on a loan
with a personal guarantee without assurance
that project will be built and approved by Seaway. Otherwise, the developer would be left liable on what would likely be a loan in the
vicinity of $20 million dollars.

S. App. 40
5.

Even if (iv) only required a “commitment” as
opposed to “funds in place” it wouldn’t work
because commitments expire usually in 45 –
60 days and paragraph 26 gives Seaway 180
days to exercise its discretion and take action
to protect the pipeline. Does that mean if the
property owners submit a plan with a 60 day
commitment, Seaway could reject it because
the property owners can’t prove the funds will
be available in 180 days? Or from the other
point of view, if Seaway accepted the 60 day
commitment, but then took the full 180 days
to comply, the property owner’s funds would
no longer be available and the bank would
have to resubmit for new approval. It is an impossible burden.

6.

There is no guarantee that Seaway will approve the proposed protective measures.
There is no means to reconcile a difference of
opinion between a Railroad customer or a governmental permitting agency regarding what
measures need to be taken to allow for development. If Seaway refuses those terms, the
development could not go forward. This risk
would prevent financial institution from lending or committing.

7.

The 180 day discretionary period to accomplish the protective measures for the pipeline
which is reserved by Seaway causes other
problems as well. It is impossible for any developer to control all of the components that
go into development for that period of time
without substantial risk the whole project will
fail. The higher the risk the harder it is to get

S. App. 41
funding. For example, during that period it is
likely that:
a.

Building code could change

b.

Permitting agency requirements change

c.

Interest rate environment change

d.

Market conditions change

e.

Rail company/other client could go to
competitor or face financial difficulties
causing developer to lose a deal

f.

Financing commitment could expire or
Bank can withdraw commitment
(A bank will always include the ability
to withdraw funding commitments for
certain reasons. The Bank could reach
its maximum construction funding allocation and then decline to do additional deals, or one or more of the above
conditions change making the project
no longer financially feasible or physically possible.)

8.

g.

Construction costs change so that project
economics no longer make sense

h.

Environmental group litigation/protests
can slow or prohibit development.

Any prudent investor owner would evaluate
all market conditions before proceeding with
new development. The market conditions on
readiness for development are always important. Six months is a long time for the

S. App. 42
market conditions to change. Market risk always exist but in this situation the property
owners have so many handcuffs on their ability to develop that Lenders would consider
this project not worth the speculation. Some
examples of projects that have failed because
of changes in market conditions include:

9.

a.

Orlando Project – Received final approval
and pulled permits. Contractor put in underground infrastructure and then literally developer put project on hold for two
years until market conditions returned –
then had to re-permit everything because
building codes had changed – real world
example.

b.

Energy corridor here in Houston – Several speculative (no pre-leasing) office
buildings completed in last 24 months
that still remain vacant today with zero
cash flow. Banks are now contemplating
foreclosure or asking the Sponsors to provide more equity to pay down the loans.

c.

Midway – City Centre new buildings –
purchased in April 2015 with intent of
tearing down three buildings for new development. Buildings are still there vacant because of changes in market (over
supply of office and demand dropped for
Class A office space).

Even if all stars align and he is able to present
plan Seaway retains power to veto because
Seaway can dispute the sufficiency of the

S. App. 43
plans/permits etc, and retains discretion as
to what it “deems necessary” to protect the
pipeline so can undermine terms of other four
requirements.
In summary, the terms set forth in requirements (i) –
(iv) of paragraphs 26 and 46 of the Second Amended
Petition in Condemnation make future development of
these tracts physically impossible and financially unfeasible because it will be impossible to meet the terms,
and any commercial lender would view the project as
too risky to put funds in play. No lender would lend the
funds necessary to develop the property with all of
these obstacles to successful development. These terms
essentially make Seaway’s promise to lower, encase or
otherwise protect the pipeline at its expense an empty
promise because the property owners cannot meet the
conditions.
Additionally, Mr. Farrar would offer testimony comparing the terms of permanent easement agreements Seaway entered into with other property owners on this
project (for example Comparison to Harrison Interests,
Exhibit 16 A-C of Summary Judgment Appendix) to
the terms of the Second Amended Petition in Condemnation.
Exhibit 16B – Harrison interests Permanent Easement Agreement. Exhibit A to the Permanent Easement Agreement, paragraphs 3. (a) and (b) are
particularly informative.

S. App. 44
The permanent easement agreement is an example of
how the condemnation petition could have been written to allow for future development and additional use
of the land. It specifies and contemplates possible additional uses and then reserves to the property owner
the ability to develop, giving Seaway only 30 days to
protect its pipeline.
Subparagraph b). Grantor Harrison Interest, retains
the power to develop its land for industrial, commercial, whatever use it pleases. It need only present its
plans to Seaway 30 days in advance. Seaway has 30
days to review the plans and take appropriate protective measures. There is no approval process and there
are no prerequisites. Seaway has no authority to reject
the proposal.
This shows Seaway knew how to allow for development
if that was actually its intent. Mr. Farrar would have
testified that he could take the Harrison Interests’ permanent easement agreement to any lender as part of a
development package and it would be sufficient to resolve the pipeline issue. The terms of the Second
Amended Petition on the other hand, would be a red
flag to any lender, and probably the death knell to the
project.

S. App. 45
Respectfully submitted,
LUCCI SMITH LAW, PLLC
/s/ Jacqueline Lucci Smith
Jacqueline Lucci Smith
Texas Bar No.: 00786073
10810 Katy Freeway, Suite 102
Houston, Texas 77043
Telephone: 832-494-1700
Facsimile: 832-494-1426
JLSmith@LucciSmithLaw.com
ATTORNEY FOR DEFENDANT
BERNARD J. MORELLO AND
WHITE LION HOLDINGS, LLC

